September 23, 2008

MANUEL ARGUELLO
RIO GRANDE DISTRICT MANAGER

SUBJECT: Audit Report – Mail Processing Operations in the Rio
         Grande District (Report Number NO-AR-08-008)

This report presents the results of our self-initiated1 audit of mail processing operations
at selected facilities in the Rio Grande District (Project Number 08XG018NO000). Our
objective was to determine if a favorable business case existed to consolidate mail
processing operations at the Waco Processing and Distribution Facility (Waco P&DF)
and Waco Annex (Annex) into one location. Click here to go to Appendix A for
additional information about this audit.

Conclusion

There is a favorable business case to consolidate mail processing operations at the
Waco P&DF and Annex into one location. This consolidation would provide
opportunities to improve processing efficiency.

Opportunities Exist to Improve Efficiency in Mail Processing Operations at the
Waco P&DF and Annex

Mail processing at the Waco P&DF and the Annex, located about 2 miles from the
Waco P&DF, was inefficient because:

    •    Unnecessary transportation costs were incurred to transport mail between
         facilities.

    •    Managers, Distribution Operations and staff were frequently required to work at
         both facilities during the course of a single tour, incurring travel time between the
         two buildings.

    •    Shorter operational windows were necessary at the Waco P&DF to meet transfer
         and dispatch schedules at the Annex.

    •    Some mail processing and mail handling positions were duplicated between the
         two facilities.

1
  We performed this audit as a result of issues identified while reviewing the timeliness of mail processing at the
Waco Processing and Distribution Facility, as reported in Delayed Mail at the Waco Processing and Distribution
Facility (Report Number NO-AR-08-002, dated March 13, 2008).
Mail Processing Operations in the                                         NO-AR-08-008
 Rio Grande District



    •   Mail required additional handling to facilitate its movement between the two
        facilities.

Click here to go to Appendix B for our detailed analysis of this topic.

This occurred because previous attempts to consolidate or streamline operations were
unsuccessful, and frequent management turnover made it difficult for new managers to
focus on consolidation efforts. As a result, the Postal Service used more resources
than necessary to process mail at the Waco P&DF and Annex.

We recommend the District Manager, Rio Grande District:

1. Develop and execute a plan for consolidating Waco Processing and Distribution
   Facility and Annex operations into one location.

Management’s Comments

Management agreed with the findings and recommendation in the report. Management
agreed to develop a proposed consolidation plan for review. We have included
management’s comments in their entirety in Appendix F.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and management’s corrective actions
should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments




                                             2
Mail Processing Operations in the       NO-AR-08-008
 Rio Grande District



cc: Patrick R. Donahoe
    William P. Galligan, Jr.
    Anthony M. Pajunas
    Ellis A. Burgoyne
    Katherine S. Banks




                                    3
Mail Processing Operations in the                                                         NO-AR-08-008
 Rio Grande District


                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Waco P&DF and Annex are located in the Rio Grande District in the Southwest
Area. The Rio Grande District includes the following cities: Waco, Austin, Corpus
Christi, San Antonio, El Paso, Midland, and McAllen. The Waco P&DF services ZIP
Codes 765, 766, and 767. (Click here to go to Appendix C for a map of the Waco
service area). Waco’s Metropolitan Statistical Area population as of the 2000 U.S.
Census was 213,517, and the projected population by 2010 is approximately 246,000.2

As of July 2008, the Waco P&DF processed mail at two separate facilities – the main,
Postal Service-owned facility, which has approximately 45,000 square feet, and the
leased Annex, located approximately 2 miles away, which has approximately 100,000
square feet. In general, letter mail is processed at the main facility; flat mail, parcels,
and some standard letter trays are processed at the Annex. There are 248 employees
at the two facilities. In fiscal year (FY) 2007, the Waco P&DF processed approximately
340 million First Handled Pieces (FHP)3 and used almost 395,000 workhours. The
Waco P&DF’s FY 2008 workload through June 2008 was over 280 million FHP
processed, using approximately 287,000 workhours.

About 10 years ago, the Waco P&DF upgraded to automated mail processing
equipment. This equipment required more floor space than could be accommodated in
the Waco P&DF, and resulted in the leasing of the Annex to accommodate the new
equipment. Waco, Texas, had been considered for a new mail processing plant, which
would have consolidated all mail processing under one roof. However, approval for this
facility was not granted due to budget constraints. Since that time, mail processing
operations have continued at the two separate locations. Additionally, the Waco P&DF
was considered for an Area Mail Processing (AMP)4 consolidation in March 2007.
However, this AMP was canceled in July 2007 because there were not significant
opportunities to improve efficiency and/or improve service. Our recommended
consolidation of Waco’s two mail processing facilities does not meet the criteria for an
AMP study.5

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine if a favorable business case existed to consolidate mail
processing operations at the Waco P&DF and Annex into one location.

We conducted this performance audit from January through September 2008 in
accordance with generally accepted government auditing standards and included such

2
  We obtained this data from the Greater Waco Chamber of Commerce.
3
  FHP is a letter, flat, or parcel that receives its initial distribution in a postal facility.
4
  An AMP study is performed when the Postal Service is considering opening a new facility to consolidate two or
more existing facilities.
5
  The AMP plan was to consolidate some mail processing operations from the Waco P&DF into the Fort Worth and
Austin, Texas Processing and Distribution Centers (P&DC).


                                                        4
Mail Processing Operations in the                                      NO-AR-08-008
 Rio Grande District


tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on March 11, 2008, and
included their comments where appropriate. We did not test controls over these
systems. However, we checked the reasonableness of results by confirming our
analyses and results with Postal Service managers.

In order to execute this audit, we:

    •   Interviewed Postal Service officials in the Southwest Area, the Rio Grande
        District and Waco, Texas.

    •   Reviewed facility leases and associated costs with updating the Annex.

    •   Analyzed the consolidation of mail processing operations from the Waco P&DF
        and Annex into one location, to determine any impacts to employees,
        productivity, service, equipment, and transportation, where such information
        could be obtained.




                                            5
     Mail Processing Operations in the                                      NO-AR-08-008
      Rio Grande District


     PRIOR AUDIT COVERAGE

     The table below lists two reports issued by the OIG related to this audit. The review of
     delayed mail at the Waco P&DC subsequently led to this review. The Jacksonville
     P&DC flat processing audit was a similar review.

                       Report            Final Report    Monetary
  Report Title         Number                Date         Impact                Report Results
Delayed Mail at      NO-AR-08-           March 13,          $0            We recommended
the Waco             002                 2008                             management ensure that
Processing and                                                            supervisors oversee mail
Distribution                                                              processing, monitor
Facility                                                                  delayed mail regularly,
                                                                          and develop action plans,
                                                                          if necessary, to ensure
                                                                          the timely processing of
                                                                          Standard Mail; develop
                                                                          and implement a mail
                                                                          arrival profile; and
                                                                          relocate accumulated
                                                                          mail transport equipment
                                                                          to allow full use of the
                                                                          mail processing floor.
Jacksonville         NO-AR-07-           March 20,       $3.1 million     We recommended
Processing and       002                 2007                             management close the
Distribution                                                              Tradeport Annex
Center Flat                                                               following the holiday
Processing                                                                mailing season and
Operations                                                                consolidate mail
                                                                          processing operations
                                                                          into the Jacksonville
                                                                          P&DC.




                                                     6
Mail Processing Operations in the                                                           NO-AR-08-008
 Rio Grande District


                               APPENDIX B: DETAILED ANALYSIS

Waco Mail Flows

As of July 2008, mail in Waco, Texas, was processed at two separate facilities. In
general, letter mail was processed at the Waco P&DF and flat mail, parcels, and some
standard letter trays were processed at the Annex, located approximately 2 miles away.
The chart below shows the steps needed to move and process mail between the two
facilities.




The Postal Service has a responsibility to maintain an efficient system of collecting,
sorting and delivering mail nationwide.6 Additionally, facilities should ensure daily that
the mail flow is fluid through all operations to meet scheduled critical entry times.7 The
President’s Commission on the U.S. Postal Service also envisions comprehensive
postal network realignment “. . . for consolidating and closing unnecessary processing
and other back-end postal facilities.”8 In response to declining mail volume, the Postal
Service’s goal has been to create an efficient and flexible network that results in lower
costs for both the Postal Service and its customers, improves the consistency of mail
service, and reduces the Postal Service’s overall “environmental footprint.”9

This situation occurred because previous attempts to consolidate or streamline
operations were unsuccessful, and frequent management turnover has made it difficult


6
  39 U.S.C., Part 1, Chapter 4, § 403(b) (1).
7
  Handbook PO-420, Small Plant Best Practices Guidelines, November 1999.
8
  Report of the President’s Commission on the Postal Service, July 2003.
9
  June 2008 Network Plan required by the Postal Accountability and Enhancement Act § 302.


                                                       7
Mail Processing Operations in the                                                               NO-AR-08-008
 Rio Grande District


for new managers to focus on analyzing trends for consolidation efforts. As a result, the
Postal Service used more resources than necessary to process mail at the Waco P&DF.

Favorable Business Case to Consolidate the Mail Operations from the Waco
P&DF and Annex into One Location

Our analysis and observations showed the mail processing operations at the Waco
P&DF and the Annex should be consolidated.10 The chart below illustrates how the mail
flow would be simplified if the two facilities were consolidated.




If operations are consolidated, cost savings and service improvements may be realized
in the following areas:

         •   Approximately 30 daily transportation trips, costing approximately $217,000,
             scheduled between the Waco P&DF and Annex may be eliminated.

         •   FHP productivity could be improved. Click here to go to Appendix D for
             additional information.

         •   Operational windows could be expanded, moving machine end run times
             closer to final dispatch times, potentially improving service scores.

         •   Waco P&DF management could better manage staff and operations when
             located at one facility, reacting sooner to possible bottlenecks and mail
             processing delays. Additionally, mail handlers performing dock operations
             would be consolidated at one facility, which would allow management more
             flexibility to use these employees in other areas as needed. A consolidation
             should not have any impact on other career employees11 as other job
             functions are not duplicated.




10
   Because there are various options for effecting this consolidation, final costs to consolidate have not been
determined at this time.
11
   Career employees include both management and craft employees.


                                                           8
Mail Processing Operations in the                                   NO-AR-08-008
 Rio Grande District


        •   Consolidating processing operations at the Annex may allow the Waco P&DF
            to house some delivery operations, which could yield secondary lease cost
            savings.




                                           9
Mail Processing Operations in the                             NO-AR-08-008
 Rio Grande District



                       APPENDIX C: MAP OF WACO SERVICE AREA




                                        10
Mail Processing Operations in the                                                         NO-AR-08-008
 Rio Grande District


                 APPENDIX D: FIRST HANDLING PIECE PRODUCTIVITY
                COMPARISION OF WACO P&DF TO SIMILAR-SIZED SITES
                               IN SOUTHWEST AREA

The consolidation of the two facilities could improve productivity by reducing mail
handlings and streamlining operations. Our analysis of Waco P&DF’s FHP productivity
shows that ample opportunities exist to improve efficiency.

     •   FHP productivity at the Waco P&DF has historically been below the average of
         similar-sized sites in the Southwest Area. Of the 19 similar-sized sites in the
         Southwest Area, Waco P&DF ranked no higher than 15th over the past 3 years
         with regard to FHP productivity.

     •   Waco P&DF’s productivity declined at a higher rate than its counterparts.
         Average productivity at the Waco P&DF decreased 4.52 percent from FY 2005 to
         2007, while average productivity at other Southwest Area sites declined just 1.69
         percent.

The chart below shows Waco P&DF’s FHP and average FHP productivity for similar-
sized sites, and the change in productivity from FY 2005 to 2007.

                                                       AVERAGE FHP
                             WACO P&DF                PRODUCTIVITY12
                                                                                     WACO P&DF
                             WITH ANNEX               OF SIMILAR-SIZED
                                                                                     WITH ANNEX
     FISCAL YEAR                FHP                       SITES IN
                                                                                      RANKING
                            PRODUCTIVITY                SOUTHWEST
                                                            AREA
      2005                          901                     1,005                           15
      2006                          877                      990                            18
      2007                          860                      988                            16
  Percentage of
   change from                -4.52 percent                 -1.69 percent
 FY 2005 to 2007

*Productivity means the number of mailpieces a facility processes in a workhour.




12
  We computed FHP productivity by dividing FHP volume by workhours for similar-sized sites in the Southwest Area.
The average does not include Waco P&DF data.


                                                       11
Mail Processing Operations in the                                                         NO-AR-08-008
 Rio Grande District


The graph13 below shows that in FY 2007, Waco P&DF ranked 16th out of 19 sites with
regard to FHP productivity.




                  FY 2007 FHP PRODUCTIVITY OF SOUTHWEST AREA SITES SIMILAR TO WACO P&DF


       1,600


       1,400


       1,200


       1,000


        800


        600


        400


        200


           0




13
     In the graph, Post Office is abbreviated PO.


                                                          12
Mail Processing Operations in the                                          NO-AR-08-008
 Rio Grande District



                          APPENDIX E: WACO, TEXAS,
                PROCESSING AND DISTRIBUTION FACILITY AND ANNEX




                       Waco, Texas, Processing and Distribution Facility




                                     Waco, Texas, Annex




                                              13
Mail Processing Operations in the                           NO-AR-08-008
 Rio Grande District


                        APPENDIX F: MANAGEMENT’S COMMENTS




                                       14
